            Millennium Challenge Corporation
            Reducing Poverty Through Growth



       OFFICE OF INSPECTOR GENERAL


Audit of the Millennium Challenge Corporation’s
Compliance with Federal Requirements for Annual Ethics
Training and Financial Disclosure Reports for Selected
Employees

Report No. M-000-05-001-P

March 31, 2005




                        Washington, D.C.
          Millennium Challenge Corporation
          Reducing Poverty Through Growth


Office of Inspector General



March 31, 2005


MEMORANDUM

FOR:                 Vice President and General Counsel, Millennium Challenge Corporation,
                     Jon A. Dyck

FROM:                Assistant Inspector General for the Millennium Challenge Corporation,
                     Henry L. Barrett /s/

SUBJECT:             Audit of Millennium Challenge Corporation’s Compliance with Federal
                     Requirements for Annual Ethics Training and Financial Disclosure Reports
                     for Selected Employees (Report No. M-000-05-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and have included them in their entirety as
Appendix II.

The report contains two recommendations for corrective action. Based on your written
comments and the supporting documentation provided we consider that final action has been
taken on both recommendations.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
[This page intentionally left blank.]
Table of
Contents   Summary of Results.................................................................................................5

           Background ..............................................................................................................5

           Audit Objective........................................................................................................7

           Audit Findings .........................................................................................................7

                         Did the Millennium Challenge Corporation comply with
                         federal regulations for financial disclosure reports and
                         annual ethics training for selected employees?........................................7

                                          Late Filing of Public Financial Disclosure Reports...............8

                                          Areas for Improvement ........................................................10

           Evaluation of Management Comments..................................................................11

           Appendix I - Scope and Methodology ...................................................................13

           Appendix II - Management Comments..................................................................15




                                                                                                                                   3
    [This page intentionally left blank.]




4
Summary      The Assistant Inspector General for the Millennium Challenge Corporation
of Results   (AIG/MCC) conducted this audit as a part of its fiscal year 2005 audit plan to
             determine whether the Millennium Challenge Corporation (MCC) had complied
             with federal requirements for financial disclosure reporting and annual ethics
             training for selected employees. Overall, MCC has made significant progress in
             the development of its ethics program. MCC complied with federal regulations
             for annual ethics training providing in-person training for all of its employees. In
             the area of financial disclosure reporting, some public disclosure reports were not
             timely filed and the required late fee was not collected (see pages 7-8).

             Four of 38 MCC employees1 that were required to file public financial disclosure
             reports did not timely file their reports and in three of these four cases the
             required late filing fee had not been collected nor had a written waiver of the fee
             been requested or prepared. Prompt filing of financial disclosure reports is
             necessary to provide protection from possible questions of conflicts of interest
             (see pages 8-10).

             Other areas requiring improvement include: (1) preparing documentation
             concerning MCC’s review of financial disclosure reports for MCC board
             members who are officials in other government agencies, and (2) identifying in
             MCC’s ethics program procedures how it will handle the ethics requirements of
             employees detailed from other government agencies (see page 10).

             This report includes two recommendations to address the issues noted regarding
             late filing of public financial disclosure reports. MCC has taken final action on
             both of the recommendations. For the first recommendation, it modified its
             written procedures to reduce the number of public filers in the future and it
             waived late filing fees in the cases cited. For the second recommendation, MCC
             revised its procedures to address how it will obtain reports from incumbent public
             filers. MCC also took action to address the other noted areas requiring
             improvement (see page 11). Management comments are included in their entirety
             in Appendix II (see page 15).


Background   Federal government regulations require government agencies to establish an
             ethics program for its employees. The purpose of the “ethics in government”
             program is to ensure that executive branch decisions are neither tainted by nor
             appear to be tainted by any question of conflicts of interest on the part of the
             employees involved in the decisions. A government agency’s ethics program
             includes collecting and reviewing financial disclosure reports, providing annual
             ethics training to employees, counseling employees on post employment matters


             1
               For purposes of this audit, “employees” included direct hire personnel, personal service
             contractors and members of MCC’s Board of Directors.



                                                                                                          5
    and ethics issues, preparing written opinions on ethics issues, and handling
    disciplinary actions for ethics violations.

    The Office of Government Ethics (OGE) provides overall policy direction to
    federal agencies regarding their ethics programs. Because the integrity of
    decision-making is fundamental to every government program, the head of each
    agency has primary responsibility for the day-to-day administration of the ethics
    program for the employees who carry out the substantive programs of that
    agency. The head of each agency selects an individual employee to serve as the
    agency's Designated Agency Ethics Official (DAEO). MCC's DAEO is the
    Assistant General Counsel for Administration. Ethics program activities managed
    by the MCC’s ethics staff and reviewed in this audit are (1) collection of public
    financial disclosure reports, (2) collection of confidential financial disclosure
    reports, and (3) annual ethics training.

    Public Financial Disclosure: Certain high-level federal employees are required to
    disclose, in a public system, personal financial interests and affiliations for
    themselves, their spouses and minor children. These public financial disclosures
    are made, in part, to demonstrate that the officials are able to carry out their duties
    without either actual or apparent conflicts of interest. Disclosures also assist
    agencies in maintaining the integrity of their essential programs and counseling
    employees on avoiding conflicts of interest. Thirty-eight MCC employees should
    have filed public financial disclosure reports as of December 1, 2004.

    Confidential Financial Disclosure: The confidential filing system requires other,
    less senior employees, whose government duties involve significant discretion in
    certain sensitive areas, to report financial interests and outside business activities
    to their employing agencies. Thirteen MCC employees were required to file
    confidential financial disclosure reports as of December 1, 2004.

    Annual Ethics Training: Each agency is responsible for developing an annual
    ethics training program for its employees. Ethics training seeks to ensure all
    federal employees are aware of their responsibilities in conducting themselves and
    the business of the Government in a manner that is consistent with the standards
    of conduct expected of public servants. This includes not only informing
    employees, but also helping them understand in practical terms how those statutes
    and regulations might impact their actions as individual employees. MCC
    required all of its employees to attend an initial ethics orientation.

    MCC is a relatively new U.S. government entity that was established in January
    2004 to further global development by promoting economic growth, eliminating
    extreme poverty, and strengthening good governance, economic freedom, and
    investment in people. MCC’s first DAEO was appointed on May 10, 2004. MCC
    also appointed an alternate DAEO and, in August 2004, hired a paralegal that
    performs duties as the Ethics Program Administrator.



6
Audit       The Assistant Inspector General for the Millennium Challenge Corporation
Objective   (AIG/MCC) conducted this audit as a part of its fiscal year 2005 audit plan. The
            objective of this audit was to answer the following question:

                   Did the Millennium Challenge Corporation comply with
                   federal regulations for financial disclosure reports and
                   annual ethics training for selected employees?

            A description of our scope and methodology is contained in Appendix I.


Audit       Overall, the Millennium Challenge Corporation (MCC) has made significant
Findings    progress in the development of its ethics program. MCC complied with federal
            regulations for annual ethics training. In the area of financial disclosure reporting,
            four MCC employees did not timely file their public financial disclosure reports
            and late filing fees were not collected or waived in three of these cases. Prompt
            filing of financial disclosure reports is necessary to provide protection from
            possible questions of conflicts of interest.

            MCC ethics staff use automated spreadsheets to track federal requirements for
            public financial disclosure reports, confidential financial disclosure reports, and
            annual ethics training. Since MCC’s inception, MCC ethics staff have made
            significant strides in establishing MCC’s notification, review and tracking
            systems, which contained adequate and accurate information to allow MCC
            officials to determine whether MCC is complying with federal ethics program
            requirements. Financial disclosure reports and training certifications are also
            maintained that support data entries into the tracking system. In addition, MCC
            ethics staff have prepared detailed policies and procedures covering the ethics
            program that describe how MCC is implementing the federal ethics requirements.

            A review of MCC’s tracking system for ethics training showed that all 60
            employees that required the training—as of December 1, 2004—had actually
            received the training. MCC went beyond the minimum ethics training
            requirements by giving in-person training by the DAEO to all of its employees.
            MCC supplemented its training program with brochures that highlighted the key
            statutory and regulatory provisions applicable to federal employee ethical
            behavior. We also noted—as of our audit cut-off date—that 12 of 13 employees
            required to file confidential financial disclosure reports had submitted their
            reports. MCC officials did not designate positions requiring such reports until
            November 2004.

            However, 3 of 38 employees—new entrant filers—required to file public financial



                                                                                                7
    disclosure reports did not timely file their reports and the required late filing fee
    had not been collected nor had a written waiver of the fee been requested or
    prepared. Also, MCC did not receive the disclosure report for an additional
    “incumbent filer” employee until over 200 days of MCC employment. The filing
    deadlines for public financial disclosure reports had not been strictly followed as
    MCC established operations and its ethics program. Prompt filing of financial
    disclosure reports is necessary to provide protection from possible questions of
    conflicts of interest.

    Other areas requiring improvement that were noted include: (1) preparing
    documentation concerning MCC’s review of the financial disclosure reports of
    MCC government board members, such as the Secretary of State and Secretary of
    the Treasury, who file disclosure reports with their government agencies, and (2)
    identifying in MCC’s procedures how it will handle the ethics requirements of
    employees detailed from other government agencies.

    Late Filing of Public Financial
    Disclosure Reports

        Summary: The Millennium Challenge Corporation (MCC) did not collect public
        financial disclosure reports for four of its employees within the specified
        timeframe including allowable extensions. Three of 38 MCC employees—“new
        entrant” filers—required to file public financial disclosure reports did not file
        their reports within 150 days of being employed. The required late filing fee of
        $200 had not been collected from the employees nor had a waiver of the fee been
        requested or prepared. In addition, MCC did not receive and review the
        disclosure report for an additional “incumbent filer” employee until over 200
        days of MCC employment. The filing deadlines for public financial disclosure
        reports had not been strictly followed in MCC’s first year of operations as MCC
        established operations and its ethics program. Prompt filing of financial
        disclosure reports is necessary to provide protection from possible questions of
        conflicts of interest.

    Federal requirements for financial disclosure reports are contained in 5 C.F.R.
    2634 which sets forth uniform procedures and requirements for financial
    disclosure with respect to executive agencies.2 According to 5 C.F.R. 2634.201,
    individuals required to file a public financial disclosure report (“incumbent”
    filers) must submit the report by May 15 each year. An individual assuming a
    public filer position (a “new entrant”) must file a public financial disclosure report
    within 30 days of assuming the public filer position. Individuals who have left a
    public filer position with a prior agency within 30 days of assuming a new public
    filer position with another agency do not have to file a new entrant report,
    however, the regulation recommends that the new agency obtain a copy of the
    2
      Government corporations also fall within the definition of executive agencies under this
    regulation.



8
individual’s last incumbent public financial disclosure report to review for
possible conflicts with their new employment. There are similar requirements in
5 C.F.R. 2634.903 regarding employees hired from other agencies that file
confidential financial disclosure reports.

Filing extensions of up to 90 days are permitted for good cause under 5 C.F.R.
2634.201. Finally, 5 C.F.R. 2634.704 requires any reporting individual who is
required to file a public financial disclosure report to remit a late filing fee of
$200, payable to the U.S. Treasury, if such report is filed more than 30 days after
the last day of any filing extension period. If extraordinary circumstances exist
that would justify a request for a fee waiver, 5 C.F.R. 2634.704 contains
provisions to allow a written waiver request by the employee and granting of a
waiver by the agency. The late filing fee is not an exclusive remedy and
administrative remedies for failing to file or filing late include removal,
suspensions, and reductions in grade or pay.

MCC ethics staff maintain an automated spreadsheet to identify employees that
are required to submit financial disclosure reports and to track the submission,
review, and certification of these reports. The tracking system and supporting
documentation show that MCC did not collect public financial disclosure reports
for four of its employees within the specified timeframes. Three of 38 MCC
employees (new entrants) required to file public financial disclosure reports had
filed their reports more than 150 days after being employed. The late filing fee of
$200 required by 5 C.F.R. 2634.704 had not been collected from the employees
nor had a waiver of the fee been requested or prepared.

Also, MCC did not have specific procedures for obtaining financial disclosure
reports from its incumbent public filers. In one case, an “incumbent” filer hired
from another agency in late May 2004 had filed a late report. The employee did
not promptly provide a copy of the report filed with the other agency nor did
MCC promptly request a copy from the other agency. MCC did not receive the
report until December 3—201 days after the employee started work with MCC.
To ensure there are no conflicts with MCC activities, MCC should ensure that
incumbent filers promptly either file a new report or provide a copy of their last
report from their prior employer. Alternatively, MCC ethics officials should
request the report from the prior employer themselves.

MCC ethics officials explained that the filing deadlines for public financial
disclosure reports had not been strictly enforced as the newly created MCC
established operations.

Prompt filing of financial disclosure reports is one of the components of an ethics
program necessary to ensure individuals and MCC are protected from possible
questions of conflict of interest. The late filing fee requirement and other
suggested administrative remedies are a reflection of the importance that is placed



                                                                                 9
     on the timely submission of these reports. An employee’s failure to file a
     required public financial disclosure report creates potential risk to the integrity of
     Government programs.            Therefore, we are making the following
     recommendations:

            Recommendation No. 1 – We recommend that the Millennium
            Challenge Corporation collect the required late filing fee from
            the three new entrant employees who filed their public
            financial disclosure reports after the required deadline.

            Recommendation No. 2 – We recommend that the Millennium
            Challenge Corporation modify its financial disclosure
            reporting procedures to specifically address how it will obtain
            reports for its incumbent public filers.


     Areas for Improvement

     Two other areas requiring improvement were noted during the audit: (1)
     preparation of documentation concerning MCC’s review of the financial
     disclosure reports of MCC government board members who file disclosure reports
     with their respective organizations, and (2) identification in MCC’s procedures
     how it will handle the financial disclosure reporting requirements of employees
     detailed from other government agencies.

     The MCC Board of Directors includes four high-ranking U.S. Government
     officials including the Secretary of State, Secretary of the Treasury, the
     Administrator of the U.S. Agency for International Development, and the U.S.
     Trade Representative. Although MCC officials report that they do communicate
     with ethics officials of these organizations concerning matters of joint interest and
     their review of the financial disclosure reports of these officials, MCC should
     maintain a written record that identifies how they ensured these financial
     disclosure reports were reviewed for possible conflicts of interest concerning
     MCC operations and the results of the review.

     In another area, MCC’s written procedures for financial disclosure reporting do
     not address how or when they will apply to employees that have been detailed to
     MCC from other federal agencies. In its first year of operations, MCC made wide
     use of detailed employees for administrative convenience. Although most of
     these employees remained with MCC for 60 days or less, at least one employee
     was detailed from the Department of State for six months before being
     permanently hired by MCC. No financial disclosure report was requested or
     obtained from the employee until after being hired by MCC. Although detailed
     employees may have met federal requirements for financial disclosure reporting
     with their “parent” organizations, MCC does have a responsibility to ensure



10
                employees who work at MCC for extended periods do not have any conflicts of
                interest with MCC operations. MCC’s procedures should address this issue and
                be applied accordingly.

                We are making no formal recommendations in these areas because MCC has
                already addressed them.




Evaluation of   In responding to the draft report, MCC disagreed with Recommendation No. 1
Management      concerning collecting the required late filing from the three new entrant
Comments        employees who filed their public finanical disclosure reports after the required
                deadline. Subsequent to the audit, MCC revised its public filing requirements
                consistent with advice from the Office of Government Ethics. Under its revised
                requirements, approximately one-half of the employees who were asked to file
                public financial disclosure reports in 2004 will no longer be required to do so
                including the three employees cited in Recommendation No. 1. Accordingly,
                MCC waived the late filing fee for these employees. MCC’s actions effectively
                address the recommendation and federal requirements for late public financial
                disclosure reports to either collect a late filing fee or the granting of a waiver by
                the employing agency.

                Regarding Recommendation No. 2, to modify its financial disclosure reporting
                procedures, MCC implemented this recommendation by revising its procedures to
                specifically address how it will obtain reports for its incumbent public filers.

                Based on MCC’s comments and the supporting documentation it provided we
                consider that MCC has taken final action on both recommendations.




                                                                                                  11
     [This page intentionally left blank.]




12
                                                                                     Appendix I


Scope and     Scope
Methodology
              The Assistant Inspector General for the Millennium Challenge Corporation
              (AIG/MCC) audited selected aspects of MCC’s ethics program in accordance
              with generally accepted government auditing standards. The audit scope was
              limited to a review of MCC’s compliance with federal requirements that selected
              employees receive ethics training and file annual financial disclosure reports. The
              audit primarily evaluated MCC’s management controls and tracking systems that
              are intended to (1) identify MCC personnel subject to ethics program
              requirements, and (2) maintain documentation that the requirements were met.
              The audit focused on MCC’s success in meeting these ethics program
              requirements for employees hired from MCC’s inception in early 2004 until
              December 1, 2004.

              The audit did not attempt to evaluate the quality and content of the ethics training
              and did not assess the process for reviewing the information contained in the
              financial disclosure reports for possible financial conflicts of interest. Other
              aspects of MCC’s ethics program including written opinions and counseling,
              disciplinary actions for violations and the approval system for outside activities
              were also not a part of the audit scope.

              Audit fieldwork was conducted at MCC’s headquarters in Arlington, Virginia
              between November 29, 2004 and January 11, 2005.

              Methodology

              In order to gain an understanding of the ethics program as it relates to the audit
              objective, we held discussions with officials of MCC’s Office of General Counsel
              who administer the MCC ethics program.

              In addition, we also performed the following steps:

              ·       Reviewed relevant laws, regulations, and guidance to gain an
                      understanding of ethics requirements within the Federal Government.

              ·       Obtained a listing of MCC’s personnel and used this as the basis for
                      assessing the completeness of MCC’s ethics program tracking systems.

              ·       Reviewed MCC’s tracking system for ensuring employee compliance with
                      ethics training and financial disclosure requirements.

              ·       Reviewed physical copies of a selected number of financial disclosure
                      reports to confirm they had been submitted, and reviewed a selected number
                      of ethics training certification forms to confirm the training had been
                      received.

                                                                                               13
     [This page intentionally left blank.]




14
                                                                                  Appendix II


Management
Comments

                           Millennium Challenge Corporation
                           Reducing Poverty Through Growth



             March 21, 2005

             MEMORANDUM

             TO:            Henry L. Barrett, Assistant Inspector General, MCC

             FROM:          Jon A. Dyck, Vice President and General Counsel /s/

             SUBJECT:      Management Comments -- Audit of MCC’s Compliance with
                           Federal Requirements for Annual Ethics Training and Financial
                           Disclosure Reports for Selected Employees (Report No. M-000-05-
                           00X-P)

             Attached please find Millennium Challenge Corporation (MCC) management’s
             comments to the Inspector General’s (IG) draft audit report relating to the MCC
             ethics program. MCC management appreciates the opportunity to comment on the
             draft report. We have reviewed the draft, discussed it with MCC ethics staff, and
             offer the following comments, which we trust you will consider as you prepare the
             final report.

             If you have any questions about these comments please contact John Mantini,
             MCC’s Designated Agency Ethics Official, at 202-521-3863 or mantinijc@mcc.gov.
             Thank you and your staff for assisting us in this important endeavor and for
             providing MCC management the opportunity to comment on the draft report.

             Attachment




                          [Tel] (202) 521-3600 I (202) 521-3700 [Fax]
                                     1000 Wilson Boulevard
                                        P.O. Box 12825
                                   Arlington, VA 22219-2825
                                        www.mcc.gov                                        15
                                                                                                 Appendix II

                            MCC MANAGEMENT COMMENTS TO
                     DRAFT IG AUDIT REPORT ON MCC ETHICS PROGRAM

I. GENERAL COMMENTS

MCC management appreciates the importance of an effective ethics program and is committed to
ensuring that our ethics program not only complies with all applicable laws and regulations but is a
model program as well. As such, we appreciate the report’s recognition that MCC has made
considerable progress in the overall development of its ethics program and that MCC has not only met,
but exceeded, federal ethics training requirements. We also take the two recommendations included in
the report seriously, the first of which we disagree with in light of the circumstances involved and the
second of which has already been implemented.

As a general matter, we believe the final report should include some additional facts, including the
following:

     •   prior to MCC’s appointment of its Designated Agency Ethics Official (DAEO) in May 2004 --
         when MCC staff consisted of primarily detailees from other agencies -- MCC coordinated with
         the United States Agency for International Development (USAID) to ensure that ethics services
         were provided to MCC. USAID’s ethics staff provided MCC staff (including detailees) with
         ethics briefings and were available to answer ethics questions from MCC staff.
     •   the report notes that 12 of 13 employees required to file confidential financial disclosure reports
         filed the reports. The report should also note that the thirteenth report was not due until after the
         period of the audit. The omission of this latter fact could leave the reader with the incorrect
         impression that MCC did not timely collect the report.
     •   the report should make it clear that at all times during the development of its ethics program,
         MCC worked closely with the Office of Government Ethics (OGE), including whether to waive
         late filing fees for first time public filers during MCC’s start-up year (the subject of
         Recommendation 1).

The inclusion of the additional facts identified above and in our specific comments below is important to
provide added context to the report and to give readers of the report a better sense of the overall progress
of MCC’s ethics program.

II. RESPONSE TO SPECIFIC RECOMMENDATIONS

MCC comments on Recommendation 1: Recommendation 1 of the draft audit report asks MCC to
collect the late filing fee of $200 for three new entrant filers who failed to file their public financial
disclosure reports on time. MCC appreciates the importance of the timely filing of financial disclosure
reports. However, as MCC ethics staff explained to the auditor and during the exit conference, since
MCC has subsequently determined that these employees should not have been asked to file the reports in
the first place, MCC does not believe it would be appropriate to collect late fees from them.

During MCC’s first year of operations, MCC ethics staff erred on the side of caution in determining
which employees should be asked to file public financial disclosure reports. Upon subsequent review of
MCC’s public financial reporting requirements with OGE, however, it was agreed that MCC ethics staff



16
                                                                                                 Appendix II

had been overly cautious in requiring public financial disclosure reports from certain MCC staff (mid-
level staff below the Managing Director level).
MCC has since revised its public filing requirements consistent with advice from OGE. Under the
revised public filing requirements, 20 of the 38 employees who were asked to file public financial
disclosure forms in 2004 -- including the three first-time filers to whom this recommendation applies --
will no longer be required to submit public financial disclosure reports.

In light of these circumstances, MCC ethics staff determined (and the OGE Desk Officer concurred) that
it would be inappropriate for MCC to penalize these late filers with a late fee. MCC management
believes this decision was a reasonable one. Therefore, we request that you eliminate Recommendation
1 from the report.

MCC comments on Recommendation 2: Recommendation 2 of the draft audit report states that MCC
should supplement its written financial disclosure reporting procedures to address specifically how it
will obtain reports from incumbent filers. MCC emphasizes that it did in fact follow all of the
substantive requirements of OGE regulations in this area during the audit period, which specify that an
agency should contact an incumbent filer’s previous agency, have the employee provide a copy of the
most recent public financial disclosure report, or have the employee file a new report. We acknowledge
a failure to document these particular procedures in writing and have since explicitly referenced the
relevant OGE regulations in MCC’s written procedures concerning incumbent filers. While there was
some confusion in obtaining the incumbent public financial disclosure report of the MCC employee
identified in your report (MCC ethics staff explained to the auditor in some detail the voluminous back
and forth correspondence between MCC and the employee's former agency), MCC ethics staff is
confident, in light of the unique circumstances involved in that situation, that problems with incumbent
filers in the future are unlikely.

We request that the text of the report be modified to provide this additional context and that
Recommendation 2 be modified to note that the recommendation has been implemented.

III. AREAS FOR IMPROVEMENT

The draft report notes as an “area for improvement” that MCC ethics staff should identify in MCC’s
ethics procedures how MCC will handle financial disclosure reporting requirements for employees
detailed from other federal agencies. MCC notes that most of its detailees during the audit period were
detailed only for a short period pending development of MCC’s payroll systems and subsequently
became MCC employees. These employees were made subject to the same disclosure requirements as
other permanent MCC employees. MCC has also added to its written ethics procedures a requirement
that where an employee is detailed to MCC for longer than 60 days or otherwise be involved in
decisions that could trigger conflict of interest concerns, MCC’s ethics staff will obtain a copy of a
disclosure report from the employee’s parent agency or, if necessary, request that the employee file such
a report directly with MCC.

As we discussed with the auditor, MCC has also addressed the other “area for improvement” by
annotating its public financial disclosure reporting requirements to ensure that the coordination with the
ethics staff of our government board members occurs annually, in conjunction with the filing of public
financial disclosure reports.



                                                                                                         17
                                                                                              Appendix II



Therefore, we request that the text of the report be modified to provide this additional context and that
the final sentence in the “areas for improvement” section be amended to read: “We are making no
recommendations in these areas because MCC has already addressed them.”




18
